k.)

Ul

f

20=1228

'

p >\ n

A I!

FILED
JAN 2 1 2021

No.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

In The
Supreme Court of the United States
CHRIS JAYE,
Petitioner,
v.
UNITED STATES ATTORNEY GENERAL WILLIAM BARR,
ET. AL.
Respondents.

PETITION FOR A WRIT OF CERTIORARI
On Petition for a Writ of Certiorari
To the US Court of Appeals for the Eighth Circuit
20-3597

Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

RECEIVED

FEB - “i 2021

QUESTIONS PRESENTED FOR REVIEW
1. Because rights are God-given to individuals, what
legal authority did this Court have to impair the
lights of the governed, specifically in exchange for
so-called common law which benefits government
actors? By what judicial authority via Article III
does this Court have to impose its will on the people
and the laws they want for their benefit (Article 1)?
2. Is it an unwritten policy in the Judiciary for federal
judges to further this Court’s judicial immunity
decree by depriving remedies in the law, e.g. 42 U.S.
Code § 1983-1988 and the All Writs Act? If so, how
does a citizen undo this policy or get the remedies in
the law when the laws are being violated by federal
judges?
3. What powers do federal judges have to act on or in
furtherance of void orders? Can a federal judge
deny voiding a void order? If so, how can a citizen
free themselves from a void order (which is always
void) if such cannot be done in the federal courts?
4. When a federal judge fails to comply with the rules
of court and impairs a citizen’s rights by the rules of
court, is there a remedy to address such violations
of due process before an appeal? Can a federal
judge direct a clerk to violate federal statutes? If
so, are these merits-based rulings as it applies to
judicial discipline procedures?

II

TABLE OF CONTENTS
Questions Presented for Review
Table of Contents

1

n

Opinions Below

m

Jurisdiction

m

Constitutional Provisions Involved

in

Rules and Statutes

m

R. 14(l)(a)(iii): List of Related Cases

1V-V11

List of Parties

vm

Petition

1-8

APPENDIX
January 20, 2021
Denial of Rehearing, Denial of Motion for
Injunction, Denial of Voiding Void Orders

Apl

December 18, 2020
Denial of Writ, Denial of Injunction (All
Writs Act) and Denial of Voiding Void
Orders

Ap2

iii

OPINIONS BELOW
The judgment and decision of the US Court of Appeals for
the Eighth Circuit was entered on December 18, 2020. It
is reproduced in Appendix as Ap 2. Petition for a
rehearing was denied on January 20, 2021.
It is reproduced in Appendix Ap 1.
JURISDICTION
The jurisdiction of this Court is invoked
per 28 U.S. Code § 1292 (a)(1) and 28 U.S. Code § 1254
CONSTITUTIONAL PROVISIONS INVOLVED
US Constitution,
First Amendment,
Fifth Amendment (including, Takings Clause)
Seventh Amendment,
Fourteenth Amendment,
Article I,
Article III,
Article VI.
RULES AND STATUTES
FRCP 1
FRCP 8
FRCP 55
FRCP 57 (Declaratory Relief)
42 U.S. Code § 1983-1988 (Civil Rights),
28 U.S. Code § 1654 (Right to Manage Case),
28 U.S. Code § 2283 (Stay of State Action),
28 U.S. Code § 16541 (All Writs Act).

iv
LIST OF RELATED CASES
Property
11 NT-1,-539-08
Fraudulent
(Primary)
representation
C-12107-8
Contract
HNT-L-594-09
by attorney;
various parties
(impaired
settlement).
SOM-L-618-12
HNT-375-12
A-4856-12T2
NJ Supreme: 075665
US Supreme: 15-753

Property
(Primary)
Contract

Standing not
resolved.

C-120-13
A-3817-13
NJ Supreme: 077545

Civil Rights

NJ Judge
represented by
N J AG

ME R-5300-14
A-3298-14

Property
(Primary)
Contract.

Standing not
resolved.

14-7471

Civil Rights

Standing not
resolved.

15-cv-5303

Removal (denied)

Not served; ex
parte ruling.

15-083245
16-2515
17-2564 (Third Circuit)
18-2187 (Third Circuit)
US Supreme: 16-451
US Supreme: 18-1374

Property/Contract No jurisdiction
FDCPA
by circui t
judges.

18-2186 (Third Circuit
US Supreme: 17-738
US Supreme: 17-739

Two appeals
due to nonfinal orders.

V

16-07771

Civil Rights, etc.
Illegal Closed

NJ AG/ US
AG. Case
closed
illegally.

F-6447-16
A-4262-16

Primary
(Primary)
Illegal

Standing not
resolved, no
right to

Foreclosure

defend.

17-5257

Civil Rights
Denied
W aivers/1illegally
Closed

Defendants
did not
appear.

R-3715

Probate (Heir)
Property

Void orders.
Jurisdiction
issues. No
right In
adjudication of
claims.

UNN-L-2542-17

Property/Torts

Case illegally
stayed for
three years.
No right to
adjudication of
claims.

F-3132-17

Property
(Primary)
Second Illegal
Foreclosure

No
jurisdiction.
Void orders.
No right to

defend.
18-1200
2019-1458 (Federal
Circuit)
US Supreme: Filed

Takings (Federal
Claims)
Primary and
other properties.

Illegally
dismissed;
lack of
jurisdiction.

vi
19-cv-121
20-2073
20-3597

Civil Rights

US AG. In
limbo for over
a year. Sua
sponte stays
ordered.

C-66-20

Property
(Beneficiary) and
Torts

Stripped of
defenses, right
to claims.

11 NT-L-d 38-20

Civil Rights

Pending.

420-CV-321

Civil Rights

Pending.

Cases directly related as per the enjoining of state actors
and voiding void orders denied in this matter;
•

•

•

•

•
•

In every state case brought against Petitioner (with or
without standing, with or without jurisdiction), rulings
were rendered against her.
In state cases involving contracts and negotiable
instruments, no contract and no note (proof of
ownership) was ever reviewed or considered. No right
to a jury trial was given. Rulings were simply
rendered against Petitioner without a trial by judges
without jurisdiction.
In every state and federal case brought by Petitioner,
not one claim was adjudicated on the merits by any
state or federal judge.
In all but two state cases, no evidence was entered.
The inviolate right to a trial was denied in all state
cases.
The right to amend in all cases has been repeatedly
denied (even when it could not be by FRCP 15).
In all civil rights cases, not one summary action
proceedings was had before cases were dismissed.

vii

Petitioner’s summary judgments were not adjudicated
at all in any federal court.
• State claims in 15-08324 were dismissed with
prejudice due to lack of supplemental jurisdiction.
There were not remanded to any court.
• All wilts and supplemental jurisdiction denied; causing
piecemeal litigation.
Three properties have been stolen by void orders since
2016 by state judges. Another illegal foreclosure (F-313219) is now pending and no adjudication on Petitioner’s
motion has been had since March 2020.
Multiple property have been impaired by void judgments.
Petitioner’s primary residence has been impaired by hens
and illegal state action since 2009. No right to any relief
has been given in over a decade by anyone. See Third
Circuit, 17-2231.
Petitioner’s claims under the Takings Clause were
brought to the US Court of Federal Claims. Petitioner
received a dismissal for lack of jurisdiction (which was a
he). This prevented adjudication the merits of those
claims by Defendant Judge Loren Smith, 18-1200L. This
Court will soon deny the petition that has been in hiding
for a year by court staff.
The right to declaratory rehef, supplemental jurisdiction,
stays of state action and every other avenue to prevent
injuries caused by 19-cv-121 was pending was denied and
further denied by the US Court of Appeals for the Eighth
Circuit (via judges who did not sign the order). (Ap 1)

R. 14(1)(C) REQUIREMENTS
This petition is under 1500 words. A table of contents and
a table of cited authorities are not required.

VIII

LIST OF PARTIES
Respondents: William P. Barr, US AG; US AG
Fitzpatrick; Daniel Gibbons, US AG; Russel Upton, US
AG; Joseph Hunt, US AG; Steven John Gillingham, US
AG; Robert E. Kirschman, US AG; Michael Shipp; Peter
Sheridan; Robert Kugler; Judge Simandle; Magistrate
Judge Apert; Magistrate Judge Bongiovani; William
Walsh; Circuit Judge Ambro;-eircuit Judge Chagares;
Circuit Judge Jordan; Circuit Judge Hardiman; Circuit
Judge Vanaskie; Circuit Judge Shwartz; Circuit Judge
Krause; Circuit Judge Restrepo; Circuit Judge Scirica;
Circuit Judge Nygaard; Circuit Judge Fuentes; Circuit
Judge Michael Fisher; Circuit Judge McKee; Chief Judge
Brooks; Loren Smith; Alan David Lourie; S. Jay Plager;
Kathleen O'Malley; Sharon Prost; Scott Harris; James C.
Duff; Stuart Rabner; Jaynee Lavecchia; Anne Patterson;
Lee Solomon; Faustino Fernandez-Vina; Walter F.
Timpone; Ban-y T. Albin; Gubir S. Grewal; Lyndsay
Ruotolo; Mary Melfi; United States Department of Justice;
Kathleen Dupuis; Yolanda Ciccone; Karen Cassidy;
Margaret Goodzeit; Kenneth J. Grispin; Michelle Smith;
Marc Ciarrocea; Steven R. Rowland; John Bridgandi;
Kenneth Sauter; Jessica N. Baker; Catherine M. Brennan;
Ian Doris; Rodger Levenson, individually and in the
capacity as Corporate Chief Executive Office of WSFS
Financial Corp. and John Does, 16-50.

1
BRIEF FACTUAL BACKGROUND
New Jersey judges have used and are using
unauthorized powers to render void orders. This
unconstitutional conduct is systemic and statewide.
Petitioner life has been altered by the illegitimate
rulings of state judges; acts furthered by federal judges
preventing her from ending this unconstitutional
practice via the relief she has been due for years.
In seven years of federal litigation since 2014, not one
federal judge has rendered void any lawless orders,
including this Court.1 Rather than uphold the law,
federal judges have guaranteed there will be no remedy
to this illegality by state judges via their own void
orders.
For years, every federal judge has plotted to strip
Petitioner of access to the courts and her right to jury
(Seventh Amendment). This has been done to ensure
federal judges can rig the case and block the very
remedies the courts are required to provide.2
1 15-753, 16-451, 17-738, 17-739, 17-2546, 19-720, et. al.
2 This Court just recently denied the State of Texas right, to
original jurisdiction. Unfathomably, this Court’s seven
“justices” stripped a party standing access to the courts.
Much like Petitioner’s void state rulings resulting in theft by
lies that are never remedied by “judges”, this void ruling by
this Court involving fraud in a national elections cannot now
be remedied. From, the top down, this scheme of denial and
delay to prevent access to the court and the remedies within
is in play. Fraud is begetting nothing but fraud as a result.

2

I. Duty to Act:
Article III Powers Mandate Action
Failure to provide lawful rulings in a case brought with
jurisdiction is “treason to the constitution.”3 A judge
must uphold the law. 42 U.S. Code § 1983-1988 and the
All Writs Act are laws. Vindications, injunctions,
declaratory relief and stays (until the legal claims are
resolved) are remedies. They have all been denied
repeatedly and without any basis in the law.
Due to the illegality of federal judges, Petitioner has lost
her liberty, privacy and properties by void rulings,
repeatedly and for more than a decade. State orders are
void and proven in the record, but there has been no
relief. As demonstrated by this latest void order, there
is never any reason for any such denials. (Ap 1)
Vengeance is in play. Petitioner is being silenced and
extorted by void orders. She can either accept being
raped of her property and stop acting to undo these void
orders or she can remain in litigation at her cost in a
futile effort to obtain remedies in the law no judge wall
provide. This is the cause and effect of this endless
lawlessness in play by unfit judges.
With no cost to federal judges who weaponize the courts
(with reliance on the Executive Branch to further
3 Cohens v. Virginia, 19 US 264 — US 1 1821

3
this fraud by more fraud as per their false claims of
representation when federal judges are sued as
individuals), the games by federal judges can be played
forever. And they are.
Petitioner can cry “void” all day long, but without a
judge doing their jobs and stopping judges from “doing
that which [they have] no legal right to do,”4 there is no
end. This latest set of denials is proof no end to this
scheme involving state judges will ever come.
It is absolutely disgusting that a citizen has had to seek
relief from void orders in the first place. Petitioner’s
properties should not have been stolen by void orders by
state judge-defendants! Federal judges should have
remedied this scam years ago. It was then and is now
the duty of federal judges to act to uphold the 14th
Amendment. They have failed entirely.
When due process has not been provided, Article III
judges can do nothing but what has been asked: declare
void void orders.

A. Judicial Immunity Used to Further and Perpetrate
Fraud by Judges
Because of the imposition of immunity, there are no
checks and balances on unelected judges.
4 Ex parte Young, 209 US 123 - USl 1908

4
This Court’s void immunity orders are relied upon by
other rogue judges in furtherance of fraud. Created and
championed by this Court, federal judges have taken full
advantage of being able to act lawlessly. They do
shamelessly and with the expectation they will get a
pass by their colleagues. Despite the delusions of this
Court, judicial immunity does nothing to benefit the
people.
The foreseeable injustice this Court intended to cause
against the people has been and is being caused by this
Court’s gift of immunity. It is not in the least
surprising that void orders are being rendered by this
Court’s minions in the lower courts so readily.
Federal judges rely on immunity to break the law.

5 The timing of this ruling, Apl, came days after notice of
another federal court suit having been filed.. Due to
deprivation of adjudication by Judge CJ Williams, resulting
in another year of foreseeable loss and real loss to Petitioner,
a new suit had to be filed. When the new suit was made
known, suddenly the circui t judges (who did not sign the
order to hide their names) jumped into action as defense
counsel in this case; an act likely done to impair the latest
federal suit. On the same day, a filing fee (sent to the US
Supreme Court on April 29, 2020) was finally cashed. The
coordinated efforts between these “courts” to hide Petitioner’s
petition, delay docketing and prevent motions from being
adjudicated has been in play for years. If not for the new
federal suit filed, these cases and the petition would have
remained in legal limbo still. The delays caused by all were
to ensure the raping in New Jersey by rogue state judge was
carried out (again) before the denials and dismissals come in
this court. It is a routine.

5
II. Fourteenth Amendment:
Equal Protection and Reverse Incorporation
Every federal judge (and federal officer) is liable under
the 14th Amendment. “[I]t is unthinkable that the same
Constitution would impose a lesser duty to the Federal
government than a state actor.”6 There is no excuse for
the deprivation of remedies in the law by either state or
federal judges.
Void orders will always be void.7 The remedy to void
that which is void cannot be withheld by federal judges
as is being done. A citizen suffering from an
unconstitutional act with the force of law must be
allowed to seek refuge in the protections of the la w and
obtain same.
“[I]f [a judge] act without authority, its judgments and
orders are regarded as nudities. They are not voidable,
but simply void. . ,.”8
“Freeform fundamental fairness notions divorced from
traditional practice cannot transform a judgment
rendered without authority into law7.”9
Petitioner’s rights have been violated and continue to be
violated by void orders. Yet there is no option but for a
FEDERAL JUDGE to act to void that which is void.
6Bolling v. Sharpe, 347 US 497 - US I 1954
7 Pennoyer v. Neff, 95 U.S. 714 - USl 1878
8 Elliot v. Piersol, 328, 340 - USl 1828
9 J. McIntyre Machinery v. Nicasiro, 564 US 873-USl 2011

6

This is not a game of wait and see. Justice delayed is
justice denied. How many times does all this need to be
said?
Petitioner has a right to be secure in the State of New
Jersey. It is the duty of federal judges to uphold
Petitioner’s rights (and millions of others) that are
impaired by rogue state actors. Federal judges have no
right to simply slap “denied” and “dismissed” on
everything when the law is clear that a remedy exists.
As per the injunctions and writs, the All Writs Act
(Mitchum v. Foster, USl 1972) cannot be denied. Yet
the policy to deny this relief by federal judges
(repeatedly since 2014) is clearly another unwritten
policy in play in the Judiciary for the benefit of judges
by judges. Until Petitioner’s legal claims are addressed,
state judges need to be restrained by a federal court as
is permitted, authorized relief by the All Writs Act.

CONCLUSION and RELIEF
Federal judges have no right to act as defense counsel.
The first void orders in all state cases must be declared
such. When done, every order thereafter must be
declared void.
“[T]he validity of every judgment depends upon the
jurisdiction of the court before it is rendered, not upon
what may occur subsequently.” Pennover.

7

Where jurisdiction fails to exist and orders are void as a
result, relief must be given. Petitioner cannot continue
to be subject to unlawful, coercive state power and loss
by the deprivation of remedies by federal judges.
Nothing makes vabd that which is void. Thus there is
no basis for any delay to the remedies.
Denials for the sake of denials without any basis in the
law (Ap 1-2) does not remedy the wrongs being done. A
remedy has been and is due now.
s/Chris Jaye
Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809

